                        U.S. Department of the Interior
                            Office of Inspector General


                                                                 Audit Report




Source: U.S. Geological Survey, Hawaiian Volcano Observatory

Hawaii Volcanoes National Park: Improved Operations
Should Enhance Stewardship and Visitor Experience



Report No. P-IN-NPS-0074-2004                                  March 2006
                   United States Department of the Interior

                                   Office of Inspector General
                                        Western Region
                                             Federal Building
                                      2800 Cottage Way, Suite E-2712
                                        Sacramento, California 95825
                                                                             March 31, 2006
                                                                                       7430
Memorandum

To:            Assistant Secretary for Fish, Wildlife and Parks

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Final Report – Hawaii Volcanoes National Park: Improved Operations
               Should Enhance Stewardship and Visitor Experience
               (Report No. P-IN-NPS-0074-2004)

       The attached report presents the results of our audit of the Hawaii Volcanoes
National Park. Our audit objective was to determine whether the Park effectively
managed selected aspects of its administrative operations. We concluded that by
adopting a more business-like approach in its operations, the Park could significantly
improve the quality of its commercial and interpretive services and maintenance
operations, thereby enhancing Park stewardship and visitor experience.

        In its March 1, 2006 response (Appendix 4 of the attached report), NPS concurred
with our recommendations. Based on the response, we consider Recommendations 4 and
5 to be resolved and implemented and Recommendations 1, 2, 3, 6, 7, 8, 9, 10, 11, and 12
to be resolved but not implemented. The status of our recommendations is shown in
Appendix 5 of the attached report. Since the report’s recommendations are resolved, no
further response to the Office of Inspector General is required.

         The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, the monetary effect of
audit findings, actions taken to implement our audit recommendations, and
recommendations that have not been implemented. The monetary effect of the findings
in this report is shown in Appendix 1.

       We appreciate the cooperation shown by the Park during our audit. If you have
any questions regarding this report, please call me at (916) 978-5653.

Attachment

cc: Director, National Park Service
Executive Summary
Hawaii Volcanoes National Park: Improved Operations
Should Enhance Stewardship and Visitor Experience
             The Hawaii Volcanoes National Park (Park), located on the
             island of Hawaii and encompassing two of the world’s most
             active volcanoes, offers a dynamic environment that attracts
             over 1.3 million visitors annually. This number is expected to
             grow substantially in 2005 and beyond. The Park receives
             about $5.4 million in appropriated funds and $3 million in
             non-appropriated funds annually. Our audit objective was to
             determine whether the Park effectively managed selected
             aspects of its administrative operations. (The scope and
             methodology of our audit are detailed in Appendix 2.) Our
             audit is part of a continuing focus on a results-oriented use of
             public resources and government accountability and the
             Department of the Interior’s (Department) emphasis on
             providing the best value to its constituents.

             We concluded that by adopting a more business-like approach in
             its operations, the Park could significantly improve the quality of
             its commercial and interpretive services and maintenance
             operations and by extension the quality of the visitor experience.
             The blueprint for such an approach already exists in the National
             Park Service’s (NPS) multi-tiered planning framework, which
             stipulates a series of increasingly detailed planning documents to
             define both the goals of a park and the means of accomplishing
             them. At the Park, key documents comprising this framework
             were either outdated or nonexistent. As a result, Park managers
             lacked the framework to effectively manage Park operations.
             Specifically:

              The Park’s General Management Plan (GMP), which defines
               the Park’s long-term goals for resource preservation and
               visitor enjoyment and is the basis for management decisions,
               was issued in 1975. It does not include changes, such as a
               50 percent increase in acreage, which directly affect Park
               management and visitor enjoyment. The Park cannot
               develop recently acquired acreage, for example, until the
               GMP is revised.

              The Park lacked the detailed planning documents needed to
               oversee its commercial services, interpretive services, and
               maintenance operations, resulting in a loss of revenues that
               could have been used within the Park: an estimated


                                 i
   $2.7 million from commercial air tour operators, $85,000
   from commercial bus tour operators, $38,800 in water
   payments from the Park concessioner, and a potential
   $50,000 in franchise fees. In addition to the loss of these
   revenues, the lack of effective planning can negatively
   impact the quality of the visitor experience in terms of the
   commercial and interpretive services offered and the
   condition of facilities. The Park could reduce its
   maintenance backlog by determining the true scope of
   maintenance needs, establishing funding priorities, and
   ensuring the timely completion of approved maintenance
   projects.

 The Park could also strengthen its controls over government
  purchase cards, fee collections, and museum collection,
  thereby reducing financial exposure to loss from fraud,
  waste, and abuse in these areas. For example, reducing
  excessive credit limits and the number of cards issued to
  staff, accepting credit cards (instead of cash only) as payment
  for entrance fees, and enforcing the requirement for reporting
  museum property losses would reduce risk and financial
  exposure.

We made 12 recommendations regarding improved planning and
oversight and believe that implementation of these
recommendations would help the Park adopt a more business-
like approach and could significantly improve the quality of its
commercial and interpretive services and maintenance
operations, thereby enhancing Park stewardship and visitor
experience. The Park concurred with and is implementing our
recommendations.




                   ii
Contents
                                                                                                                         Page

The Dynamic Environment..................................................................................................1

Results of Audit: Adoption of a More Business-like Approach Could Transform Key
 Park Practices and Enhance Operations.............................................................................4
    Outdated GMP .............................................................................................................4
    Lack of Planning and Oversight ...................................................................................5
    Inadequate Internal Controls.......................................................................................12

Recommendations..............................................................................................................15
   NPS Response and OIG Reply ...................................................................................16

Appendices

       1        Classification of Monetary Amounts ...............................................................17
       2        Objective, Scope, Methodology, and Prior Audit Coverage ...........................18
       3        Purchase Card Expenditures and Credit Limits ...............................................21
       4        National Park Service Response ......................................................................23
       5        Status of Audit Recommendations...................................................................29




Abbreviations
C.F.R. ......................................................................................Code of Federal Regulations
CIP ....................................................................................Comprehensive Interpretive Plan
CSP ............................................................................................. Commercial Services Plan
dba.............................................................................................................Doing business as
Department.................................................................................. Department of the Interior
FAA................................................................................... Federal Aviation Administration
Fee Demo ............................................................ Recreational Fee Demonstration Program
GAO...............................................................................Government Accountability Office
GMP............................................................................................General Management Plan
NPS .................................................................................................... National Park Service
OIG ............................................... Office of Inspector General, Department of the Interior
Park ................................................................................... Hawaii Volcanoes National Park
PMIS ................................................................... Project Management Information System
U.S.C.......................................................................................................United States Code
Volcano House...........................................Ken Direction Corporation dba Volcano House




                                                              iii
The Dynamic Environment

            The Park, established in 1916, represents 70 million years of
            volcanism and evolution in the Hawaiian Islands chain.
            Astoundingly diverse, the Park encompasses about
            333,000 acres, extending from sea level to the summit of the
            earth’s most massive volcano, 13,677-foot Mauna Loa.




                                              Figure 1
                 Park in Relation to Island of Hawaii
                      Map Courtesy Honolulu Advertiser

             As home to two of the world’s most active volcanoes, Kilauea
             and Mauna Loa, the Park is a dynamic environment. Kilauea
             has been erupting continuously since 1983 and is still adding
             land to the Big Island of Hawaii. The Park’s volcanic
             environment offers awe-inspiring landscapes to visitors—over
             1.3 million of them in 2004. Much of the Park is designated as
             wilderness, providing unique hiking and camping
             opportunities.

             As steward of the nation’s park system, NPS is charged with
             preserving the Park’s natural and cultural resources for the
             enjoyment of future generations. To accomplish this mission,
             NPS relies on a multi-tiered park planning framework
             (Figure 2), which focuses on why the park was established,
             defines desirable resource conditions and visitor experiences,
             identifies the management actions needed to achieve park goals
             over time, and provides a means for management to measure
             success in meeting these goals. In effect, the framework is



                                1
                         equivalent to a business plan—the blueprint of the actions and
                         procedures necessary to build a successful company and assess
                         not only where the company is currently, but where it is
                         headed.

                     Long Term                  Short Term
                                                                           Immediate
                    (15-20 Years)                (5 Years)


     WHY?
(Why is there         Foundation
                     for Planning
a Park? Why               and
  is the Park        Management
 significant?)




   WHAT?
(What results          General
 do we want          Management
 the Park to            Plan
accomplish?)

                                                                              Annual
                                          Strategic                        Performance
                                            Plan                             Plan and
   HOW?                                                                       Report
(How do we
                                                      Implementation
  intend to                                                Plans
 accomplish
the results?)



Source: National Park Service Program Standards: Park Planning, issued by Associate
Director of Park Planning, Facilities, and Lands, August 2004
                                                                               Figure 2
                                                               NPS Planning Framework

                         The foundation for planning and management document is a
                         conceptual statement of why the Park was established, the
                         resources to be preserved, and Park experiences that would
                         benefit the public. The GMP builds on the foundation
                         document by looking at the Park holistically, both as a unit of
                         the National Park System and as part of the surrounding region,
                         for the long term. It defines the Park’s long-term direction for
                         resource conditions and the quality of visitor experiences and
                         forms the foundation for decision making. Strategic planning
                         focuses on a shorter time frame than the GMP and targets
                         measurable results.


                                            2
                                Implementation planning provides the detailed plans necessary
                                to accomplish strategic goals. Annual performance planning
                                articulates annual goals for each fiscal year, and annual
                                performance reports identify the progress made toward meeting
                                these goals. Collectively, these documents provide the basis
                                from which Park managers oversee and monitor park
                                operations and programs.

                                The Park receives about $8.4 million each year: $5.4 million
                                in appropriated funds and about $3 million from Recreational
                                Fee Demonstration (Fee Demo)1 program monies, franchise
                                fees,2 and other non-appropriated sources. Full-time Park
                                employees total about 95.




1
  Under the Fee Demo Program, which was authorized in 1996 to evaluate the feasibility of charging new
or increased fees at recreation sites to enhance visitor enjoyment and protect resources, individual parks can
retain a portion of the fees for in-park use.
2
  Fees paid by private businesses or concessioners that contract with NPS to provide commercial services
within parks


                                                      3
Results of Audit:
Adoption of a More Business-like Approach Could
Transform Key Park Practices and Enhance Operations

                    The Park lacked the planning framework necessary to
                    effectively manage the administrative aspects of the operations
                    that we reviewed. Specifically, the Park has not updated its
                    GMP or developed the detailed implementation plans critical to
                    effective oversight of its commercial services, interpretive
                    services, and maintenance operations. In addition, internal
                    controls deficiencies in key areas increased the risk of fraud,
                    waste, and abuse in accounting for federal monies. With better
                    planning and the adoption of a more business-like approach,
                    the Park could significantly improve its operations, in terms of
                    cost-effectiveness and quality of facilities and services.

                    Outdated GMP
                    Contrary to NPS guidelines, the Park has not revised its GMP,
                    issued in 1975, or revisited its foundation for planning and
                    management document, issued in 1985. According to NPS
                    guidelines, GMPs should be reviewed and revised to keep them
                    current. NPS anticipates that such reviews are needed every 10
                    to 15 years or sooner if conditions change more rapidly. Even
                    in parks with strong traditions and entrenched patterns of use
                    and development, decision makers will benefit from
                    occasionally stepping back to reassess their overall goals,
                    particularly if resources are threatened, sites are crowded, or
                    park facilities require extensive rehabilitation or maintenance.
                    The Park needs to update these documents to incorporate
                    significant changes that have already occurred or are projected
                    to occur. For example:

                     A 2003 acquisition increased the Park by about
                      116,000 acres of woodlands and rainforests, lava flows, and
                      ancient archeological sites (Figure 1). The Park cannot
                      develop this area until a revised GMP is prepared and
                      approved.

                     Since 1983, a continuous lava flow from the Kilauea
                      Volcano has reshaped the east side of the Park and added
                      over 506 acres.



                                      4
 The growing number of inter-island cruise ships is expected
  to substantially increase the number of Park visitors in
  2005 and beyond.

In light of these changes, it is critical that the Park begin the
GMP planning process to re-evaluate desired future resource
conditions and visitor experiences and develop appropriate
plans to accomplish long-term goals.

Lack of Planning and Oversight
We focused on the effectiveness of three key Park operations—
commercial services, interpretive services, and maintenance—
and found that without an adequate planning framework, Park
managers lacked the direction necessary to achieve desired
results. For example, the Park had not developed two critical
implementation plans, the Commercial Services Plan (CSP)
and the Comprehensive Interpretive Plan (CIP). A CSP is
essential to ensuring an integrated planning approach that
identifies the appropriate commercial services needed in the
Park and the best practices to manage these services. A CIP is
equally essential to developing an integrated interpretive
program that inspires visitor learning, provides recreational
experiences, fosters a personal stewardship ethic, and broadens
public support for preserving park resources to the fullest
extent possible. In response to our audit findings, the Park
began establishing the planning framework for the CSP by
holding public meetings with the community in June 2005.
Although the Park began developing a CIP in 1999, the draft
CIP is still in a preliminary stage.

Commercial Services
The Park’s commercial services included air and bus tours and
a concession operation. The lack of oversight over air and bus
tours was evident in unrealized revenues and amounts payable
from commercial tour operations over the last 5 years. These
totaled an estimated $2.7 million that remains uncollected from
air tour operators and $85,000 that was payable from tour bus
operators as of September 2004. The Park also did not
(1) ensure concessioner compliance with contract terms
requiring payment of water service costs and provision of
quality service or (2) begin proactive planning for a new
concessions contract when the current one expires in 2008.

    Commercial Air Tour Operators. The Park has not
established and implemented procedures to identify


                   5
                                         noncompliant air tour operators and validate the accuracy of
                                         overflight reporting through coordination with the Federal
                                         Aviation Administration (FAA). As a result, the Park could
                                         only estimate the overflight fees due. Figure 3 compares
                                         overflight revenues collected with the revenues the Park
                                         estimated it should have received and shows the $2.7 million
                                         that was uncollected. In addition, 9 of 14 operators did not
                                         report and pay any of the $1 million owed to the Park between
                                         2000 and 2004.

                                                Commercial Air Tour Operator Revenues as of September 2004

                                         $900,000
                                                     $784,525
                                         $800,000

                                         $700,000                                             $719,700


                                         $600,000
                                                    $507,625    $509,200
                                                                                                                 Estimated Revenues
                              Revenues




                                         $500,000                            $538,800
                                                                                         $490,800                Due (5 Years)
                                         $400,000                                                                Amount Uncollected
                                                                                         $293,725                Revenue Collected
                                         $300,000                            $245,725
                                                    $276,900    $275,325
                                         $200,000

                                         $100,000
                                                                                                    $64,825
                                              $0
                                                     2000        2001         2002       2003             2004
                                                                           Fiscal Year


                                Source: Park-generated Air Tour Fees Report                                                  Figure 3

                                         NPS officials told us that FAA believed historical flight
                                         information was proprietary and could not be used to assess
                                         fees. However, FAA’s failure to provide information on
                                         overflights is contrary to the Congressional requirement that
                                         FAA and NPS coordinate the management of commercial air
                                         tour operators over national parks. Further, our General
                                         Counsel’s Office is not aware of any law or regulation
                                         requiring FAA to collect information on park overflights with
                                         the condition that the information will not be used to assess
                                         fees. Such a condition is contrary to ensuring that operators
                                         pay the required fees. The Secretary of the Interior is
                                         authorized to assess fees on aircraft overflights.3 Information
                                         on overflights is clearly relevant to the accurate assessment and
                                         collection of fees. Even if one were to assume that such
                                         information was commercial proprietary information subject to
                                         the provisions of 18 U.S.C. § 1905, disclosure to NPS is

3
    16 U.S.C. § 4601-6a(n)(5)(B) (2005)


                                                                      6
                             authorized by law, as the information is necessary to assess
                             fees and make informed decisions (in cooperation with FAA)
                             on the number of authorizations to issue for commercial air
                             tour operations over a national park.4 NPS has authority to
                             require submission of overflight information as one of the
                             relevant criteria for approval of operator’s proposals and to
                             collect fees5 under its collection and enforcement authority.

                                 Commercial Bus Tour Operators. By the end of fiscal
                             year 2004, bus tour operators owed the Park $85,000 in unpaid
                             entrance fees. The fees were unpaid because the Park allowed
                             bus tour operators to pay fees after the fact, unlike visitors
                             arriving by passenger vehicle, who pay fees upon entry to the
                             Park. Park officials stated that they recently started this
                             practice because smaller operators had cash flow problems.
                             We believe the Park should discontinue the practice of
                             allowing tour bus operators to pay after the fact and should
                             accept credit cards as payment at the entrance fee station to
                             alleviate cash flow concerns. The benefits of credit cards are
                             discussed under “Entrance Station Collections.”

                                 Concessioner. The Park did not require its sole
                             concessioner, Ken Direction Corporation dba Volcano House,6
                             to comply with contract terms for (1) paying a fair share of
                             water service operating costs and (2) providing consistent
                             services at a quality equal to industry standards. As a result:

                                   From 1995 to 2004, the Park undercharged Volcano
                                    House an estimated $38,800 for water. The Park did not
                                    conduct required annual water rate studies for at least
                                    9 years and, despite escalating water costs, continued to
                                    charge the base rate of $8.89 per 1,000 gallons. Water
                                    rate studies are essential to determining the tenant water
                                    rates necessary for recovery of water service operating
                                    costs and to maximizing the dollars available for mission
                                    related needs.

                                   Park inspections and our observations revealed numerous
                                    deficiencies in the quality of concessioner facilities and
                                    services, including tables and chairs in disrepair, noisy
                                    pipes, and overall poor food and lodging service.
                                    According to Park records, Park staff made only two
                                    inspections during the 13-month period ending October

4
  49 U.S.C. § 40128(a)(2)(C)(2005)
5
  49 U.S.C. § 40128(a)(2)(B)(vi)(2005), 36 C.F.R §§ 71.11 and 71.12(2005)
6
  Volcano House provides lodging, restaurant services, and gift shops.


                                                  7
                                      2004. Deficiencies could therefore have existed a
                                      significant amount of time before detection. The Park
                                      should step up inspections and should include reviews of
                                      guest comment cards, which have long been recognized
                                      as a valuable tool in preventing and eliminating recurring
                                      problems.

                               In addition to these problems, the Park needs to proactively
                               plan for awarding a new concessions contract after the current
                               one expires in 2008. Specifically, the Park should address
                               compensation issues related to concessioner improvements
                               (“possessory interest”)7 under the National Park Service
                               Concessions Management Improvement Act of 1998.
                               Possessory interest is a legal obligation, and the current
                               concessioner, if not awarded the new contract, is entitled to be
                               compensated for its possessory interest by the successor
                               concessioner or the U.S. government.

                               Historically, disagreement between NPS and concessioners on
                               the value of possessory interest has delayed the award of new
                               contracts. In light of anticipated difficulties, the Park should
                               proactively begin determining possessory interest for
                               concessioner improvements to the Volcano House, employee
                               dorm, and concessioner house.

                               Interpretive Services
                               Interpretive services at the Park, which are essential to public
                               understanding and appreciation of Park resources, lack
                               oversight and are not integrated. During our review, we noted
                               three areas that reflected the lack of implementation planning,
                               all of which could ultimately affect the quality of visitor
                               experiences.

                                   Inventory and Integration of Interpretive Services.
                               Inventorying and integrating the interpretive services provided
                               within the Park are among the first considerations in a well-
                               defined interpretive services operation. Park staff, however,
                               could not provide us with an inventory of either the type or the
                               frequency of interpretive services provided or planned by Park
                               employees and provider organizations.8


7
  Possessory interest is defined as the reconstruction cost less depreciation (evidenced by the condition and
prospective serviceability of a unit when compared with a new unit of like kind), not to exceed fair market
value.
8
  Interpretive service assistance providers include the Volcano Art Center, Natural History Association, and
Friends of the Hawaii Volcanoes National Park.


                                                     8
                                 Use of Correct Legal Instrument. In its implementation
                             planning, the Park must clearly identify the desired roles of
                             each interpretive service provider and ensure that the correct
                             legal instrument is used to document the provider’s relationship
                             with the Park. Selection of the correct instrument not only
                             defines the mutual expectations of the Park and the provider,
                             but also affects Park revenues. For example, at the present
                             time, the Volcano Art Center operates under a cooperative
                             agreement. The criteria9 for cooperative agreements are
                             specific, requiring that NPS transfer money, property, or
                             services to the cooperator to carry out a public purpose and that
                             NPS be substantially involved in carrying out this purpose. At
                             the present time, however, the Center is operated autonomously
                             as an art gallery, with little Park involvement. For example,
                             Park staff could not tell us what educational activities,
                             demonstrations, or exhibits were sponsored by the Center,
                             although they did state that such activities were minimal.

                             Given the current operation of the Center, a concession
                             contract appears to be the appropriate legal instrument. While
                             cooperative agreements identify those entities, or cooperators
                             working closely with the Park to enhance visitor experience,
                             contracts identify entities, such as concessioners, who operate
                             to generate profits both for themselves and for the Park through
                             franchise fees. Had the Park awarded a concession contract
                             instead of a cooperative agreement, it could have realized an
                             estimated $50,000 annually in franchise fees.

                                 Partnerships with Nonprofit Organizations. In
                             developing its implementation plan, the Park should also
                             consider partnerships with nonprofits, such as “friends” groups
                             or park-specific foundations, which a 2003 Government
                             Accountability Office (GAO) report10 identified as profoundly
                             enhancing the quality of service provided by parks. According
                             to the report, these partnerships can offer significant support in
                             fund-raising and educating the public about the value of Park
                             resources and activities. GAO, for example, stated that from
                             1997 to 2001, these organizations contributed over
                             $200 million toward educational programs, as well as
                             substantial numbers of volunteers providing such services as
                             maintaining trails, staffing visitor information kiosks, and
                             cleaning campgrounds. Within the Park, the Friends of Hawaii
                             Volcanoes National Park, established in 1998, provide non-

9
 Federal Grant and Cooperative Agreement Act of 1977 31 U.S.C. § 6305
10
  Park Service: Agency Needs to Better Manage the Increasing Role of Nonprofit Partners (GAO-03-
585), issued July 2003


                                                 9
                                financial assistance for the Ainahou Ranch, a small section of
                                the Park.

                                Maintenance
                                As of September 2004, the Park’s maintenance backlog11
                                totaled an estimated $19 million. Although funding
                                availability affects the backlog, the backlog is also the result of
                                the Park’s lack of planning and management emphasis in this
                                area. Specifically, the Park has not completed condition
                                assessments of Park assets, developed strategies for addressing
                                identified maintenance deficiencies, or ensured the timely
                                completion of maintenance projects.

                                    Comprehensive Condition Assessments. The Park
                                determines whether assets require maintenance through
                                ongoing assessments, which identify obvious deficiencies, and
                                comprehensive condition assessments, which monitor asset
                                deterioration, determine the need for rehabilitation and
                                replacement, and establish funding priorities for future
                                maintenance. The NPS Pacific West Region requires the Park
                                to complete comprehensive condition assessments by 2006 for
                                251 of its over 400 assets. The Park, however, had completed
                                comprehensive condition assessments only for its trails, as
                                shown on Table 1.

                                                         Table 1
                                     Status of Comprehensive Condition Assessments
                                                  As of February 2005

                           Fiscal Year             Asset Category                 Target       Completed
                              2004            Trails                                56            56
                              2005            Grounds and Waterways                 36            0
                              2006            Buildings and Utilities              159             0
                           Unscheduled        Various                              154            0
                              Total                                                405            56
                           Source: Hawaii Volcanoes National Park – Condition Assessment Progress
                                   Report



11
  The NPS maintenance backlog, estimated between $4.5 billion and $9.7 billion, continues to be a major
management challenge. Deteriorating facilities not only threaten public health and safety and natural and
cultural resources, but also increase repair costs for structures and equipment. To address this problem, the
Department has developed a comprehensive maintenance management system to help plan, prioritize,
conduct, and track the condition and maintenance of facilities. Full implementation, which includes
completing comprehensive condition assessments of assets, is targeted for 2006.


                                                     10
                              To ensure progress, the Park should develop a plan outlining
                              the strategy, priorities, and target dates for completing all
                              comprehensive assessments. The plan should be tailored to
                              meet specific Park needs. For example, the assessment of
                              Volcano House, which was included with assets scheduled for
                              comprehensive assessments in 2006, should be done earlier to
                              allow time for completing and incorporating the assessment
                              into the prospectus for a new Volcano House concession
                              contract.

                                  Maintenance Strategies. Maintenance is funded by
                              operational monies, NPS maintenance funds, and Fee Demo
                              revenues and is performed by in-house staff or by contractors.
                              Effective oversight of maintenance operations requires the Park
                              to determine the “best mix” of funding and delivery options to
                              optimize visitor benefits. In light of staffing shortages and
                              potential cost savings, contracting out certain maintenance
                              projects to the private sector could free up resources for other
                              activities.

                              In fiscal years 2003 and 2004, the Park did contract out four
                              projects, primarily because of their complexity. Contracting
                              out maintenance activities, when warranted, is a promising
                              practice, which adds to the maintenance options available to
                              Park management to deal with increased operating costs and
                              limited dollars. Thus, the Park should determine the feasibility,
                              on a case by case basis, of contracting out maintenance
                              projects.

                                   Project Completion. The majority of rehabilitation and
                              replacement projects at the Park are funded with Fee Demo
                              funds. In fact, since implementing the Fee Demo program in
                              1997,12 the Park has collected about $24 million in revenues, of
                              which it retained $19.5 million for on-site improvements, such
                              as construction and repair of buildings, campgrounds, roads,
                              trails, and the Kilauea Visitor Center.

                              Between fiscal years 1997 and 2004, the Park obligated
                              revenues timely, but completed only about one-third of the
                              141 projects funded. A detailed analysis of 45 of these projects
                              disclosed that as of January 2005, only 21 projects were
                              completed, with 24 in varying stages of construction that had
                              been ongoing an average of 4 years.


12
 The Federal Lands Recreational Enhancement Act, enacted in 2004 as part of the Omnibus
Appropriations Bill, authorized continuation of the fees allowed by the Fee Demo program through 2014.


                                                  11
Significant delays between project funding and start dates
occurred because maintenance staff were diverted to higher
priority projects. For example, construction on a project to
rehabilitate a field research center did not begin until October
2000, although the project was funded in 1997. Similarly,
construction on a project to improve accessibility to an
education center, approved in 2001, did not begin until October
2003.

Better use of NPS’s Project Management Information System
(PMIS) to monitor project status could improve oversight of
maintenance projects. For most projects, we found key data
fields, such as target completion dates and explanations for
delays, were not entered into PMIS. An interpretive rainforest
walk project approved in 1997, for example, did not state a
target completion date or a reason for delays. Park officials
stated that difficulties in creating an accessible walkway
without disrupting the surrounding environment had delayed
the project, which is about 50 percent complete.

Inadequate Internal Controls
During our review of the Park’s internal controls, we noted
deficiencies in three areas: purchase cards, fee collections, and
management of the museum inventory. To strengthen internal
controls and reduce the risk of fraud, waste, and abuse in these
areas, the Park should (1) limit purchase card issuance and
credit limits to the legitimate needs of Park staff, (2) accept
credit cards at the fee collection station, and (3) enforce
requirements for reporting museum collection losses.

Purchase Cards
During fiscal year 2004, the Park used charge cards to procure
over $700,000 in goods and services, using the purchase
business line of the government charge card program.
Although we did not find any questionable purchases, the
excessive number of cardholders and the high credit limits
increased the Park’s financial exposure. As of June 2004, the
Park had issued purchase cards to about 50 percent of its staff.
Appendix 3, which compares the monthly credit limits for
45 employees with their average monthly and fiscal year 2004
expenditures, shows that the credit limits were excessive, with
about 1.5 percent of the overall credit available used. The Park
has not implemented recommendations in our 2001 report on




                 12
                              the integrated charge card program,13 one of which advised the
                              Department to ensure that purchase cardholders and credit
                              limits were based on the minimum number and amounts
                              needed for efficient operation.

                              Federal purchase card programs have proven very beneficial in
                              streamlining the small purchase acquisition process, reducing
                              transaction processing costs, and providing greater flexibility in
                              procuring needed goods and services. However, an adequate
                              control environment is essential to reduce the Government’s
                              financial exposure and risk.

                              Entrance Station Collections
                              The Park collects a significant amount of cash daily. For
                              example, in March 2004, the Park collected about $6,000 daily
                              at its entrance station from commercial tour operators and
                              visitors. The Park, however, did not accept credit cards as
                              payment for entrance fees as some other parks do, even though
                              it considered cash collections as high risk and subject to fraud,
                              waste, and abuse, such as embezzlement.

                              The Park’s non-acceptance of credit cards is counter to current
                              business practices, in which credit cards are so commonplace
                              that non-acceptance is the exception rather than the rule.
                              According to a recent survey conducted by BIGresearch,14 the
                              average consumer has at least two credit cards. Table 2
                              illustrates the benefits of credit cards from both a business and
                              consumer perspective.
                                                              Table 2
                                                       Credit Card Benefits
                                                                               Consumer
                                      Business Perspective                     Perspective

                                 Improved Sales                          Convenience
                                 Reduced Expenses                        Flexibility
                                 Security                                Security
                                 Efficient Transaction                   Emergency Buying
                                 Processing                              Power



13
   OIG: Department of the Interior – Integrated Charge Card Program, Report No. 2002-I-0011,
December 2001
14
   BIGresearch is a consumer market intelligence firm that designed the 2003 Consumer Credit Survey to
gauge consumer shopping trends related to various payment options. The consumer poll has a margin of
error of plus or minus 1 percent.


                                                  13
                                We believe that by accepting credit cards, the Park can enjoy
                                these same benefits, improve visitor satisfaction, increase
                                National Park Pass sales, and expedite fee collections from
                                commercial tour operators (see “Commercial Bus Tour
                                Operators”).

                                Museum Collections
                                Museum collections are part of the cultural resources that NPS
                                is charged with preserving. According to the NPS Museum
                                Handbook, Parks must inventory 100 percent of their museum
                                collections annually and promptly report losses to Park law
                                enforcement officials for appropriate follow-up. In its fiscal
                                year 2004 inventory, the Park could not locate 7 items in its
                                172-item collection. These items, which consisted of
                                invaluable and irreplaceable paintings, stone objects, and
                                scientific specimens, have been missing since prior to 1998.
                                Over these years, at no time did the Park report the missing
                                items to law enforcement officials or convene a Board of
                                Survey15 to adjust its inventory records. Recovery of the items
                                is doubtful because of the elapsed time since these items were
                                last seen.




15
   The Board of Survey is responsible for investigating the loss, reporting findings, determining financial
liability, and recommending disciplinary action, if appropriate.


                                                     14
Recommendations

             We recommend that the Regional Director of the NPS Pacific
             West Region and the Park Superintendent:

                  1. Update and revise the Park’s GMP and related plans to
                     verify the appropriateness of the Park’s strategic course
                     and associated goals, thereby ensuring suitable efforts
                     are made toward long-term resource preservation and
                     visitor satisfaction.

             We recommend that the Park Superintendent:

                  2. Develop an integrated CSP that identifies the
                     appropriate commercial services needed and the best
                     practices to manage these services.

                  3. Establish and implement procedures to ensure
                     commercial air and bus tour operators accurately report
                     and pay required fees on time.

                  4. Enforce concession contract terms that require the
                     concessioner to pay its fair share of water service
                     operating costs and to provide quality service.

                  5. Proactively plan for the new concession contract,
                     including determining the value of the concessioner’s
                     capital improvements and resolving possessory interest
                     issues.

                  6. Develop an integrated CIP that identifies the
                     interpretive service operations that are or should be
                     available from the Park, and how interpretive service
                     needs will be met through a combination of NPS staff,
                     concessioners, and Park cooperators.

                  7. Develop and implement a plan to complete
                     comprehensive condition assessments. The plan should
                     address strategy, priorities, and target dates for
                     completing all assessments.




                               15
   8. Determine the feasibility of contracting additional
      maintenance projects to the private sector to better use
      Park resources.

   9. Fully use the PMIS to oversee maintenance projects.

   10. Reduce the number of purchase cardholders and lower
       charge card limits based on a combination of historical
       use information and cardholder position
       responsibilities.

   11. Accept credit cards as payment for entrance fees.

   12. Enforce the NPS requirement for reporting museum
       property losses.

NPS Response and OIG Reply
The March 1, 2006 NPS response was sufficient for us to
consider all of the recommendations resolved, with
recommendations 4 and 5 also considered implemented.
Overall, NPS agreed to develop or update park planning
documents, enforce entrance and tour fees while streamlining
collection efforts, integrate park interpretive services, and work
to improve Park performance in several maintenance and
administrative areas. The status of all audit recommendations
is shown in Appendix 5.




                  16
Appendix 1
Classification of Monetary Amounts

                                                   Lost or
                                                  Potential
                                   Unrealized    Additional       Lost
                                   Revenues      Revenues      Revenues
                 Source            (millions)   (thousands)   (thousands)

      Uncollected Fees from
      Commercial Air Tour
      Operators
      (Recommendation 2)                $2.7

      Entrance Fees from
      Commercial Bus Tour
      Operators
      (Recommendation 11)                          $85.0

      Understated Water Rates
      (Recommendation 4)                                         $38.8

      Franchise Fee from Volcano
      Art Center
      (Recommendation 6)                                         $50.0




                                   17
Appendix 2
Objective, Scope, Methodology, and Prior Audit
Coverage

               Objective, Scope, and Methodology
               The objective of our audit was to determine whether the Park
               effectively managed selected aspects of its administrative
               operations. We conducted our audit from June 2004 to
               November 2005 in accordance with the Government Auditing
               Standards, issued by the Comptroller General of the United
               States. Accordingly, we included such tests of records and
               other auditing procedures considered necessary under the
               circumstances. To accomplish our objective, we conducted the
               following activities:

                Reviewed internal controls and identified weaknesses
                 relating to Park planning, commercial services, deferred
                 maintenance, purchase cards, entrance station collections,
                 and museum collections, as discussed in the Results of
                 Audit section. As part of our review, we determined the
                 amount of water service undercharges related to the
                 Volcano House concession operation by escalating the
                 $8.89 base rate using the Hawaii consumer price index
                 from 1995 to 2004 and applied the applicable rates to
                 annual water usage and hauling costs. Our
                 recommendations, if implemented, should improve internal
                 controls in these areas.

                Interviewed Park officials and staff.

                Reviewed various NPS references, including Management
                 Policies, Directives, Museum Handbook, and Personal
                 Property Management Handbook. We also reviewed the
                 Park’s budgetary and financial reports, contracts and
                 agreements, and other relevant documents.

                Reviewed the Department of the Interior’s Report on
                 Performance and Accountability for fiscal year 2004,
                 including information required by the Federal Manager’s
                 Financial Integrity Act. The Department reported
                 inadequate maintenance management capability as a
                 mission-critical material weakness.



                                18
 Reviewed Government Performance and Results Act goals
  and measures related to the Fee Demo program to
  determine whether they were appropriate and outcome-
  based. In response to our August 2002 Fee Demo audit, the
  Assistant Secretary for Policy, Management and Budget
  directed NPS to amend its Fee Demo performance
  measures to include (1) customer satisfaction with value for
  fee paid, (2) percent of fee revenue obligated to
  maintenance projects, and (3) percent of fee revenues spent
  on fee collection.

We did not evaluate Park policies and procedures over special
permits, such as special events, commercial filming and still
photography because of a recent GAO review in this area.

Prior Audit Coverage
We reviewed the following audit coverage applicable to the
Park.

 May 2004, Federal Acquisition: Increased Attention to
  Vehicle Fleets Could Result in Savings (GAO-04-664).
  This report focused on the significant savings that could
  result if federal agencies ensured vehicle fleets were the
  appropriate size and composition to meet mission needs.

 February 2004, U.S. Department of Interior: Fleet
  Management Operations (OIG Report No. C-IN-MOA-
  0042-2003). This report concluded that the Department
  could achieve significant savings if its vehicle fleet was
  appropriate to mission needs. During our audit, the Pacific
  West Region directed park units under its cognizance to re-
  assess fleet levels and to justify each vehicle in its fleet.
  Based on its re-assessment, the Park proposed to reduce its
  fleet by five vehicles.

 February 2004, Competitive Sourcing: Greater Emphasis
  Needed on Increasing Efficiency and Improving
  Performance (GAO-04-367). GAO discussed the need for
  agencies to (1) ensure consistency in classifying positions
  as inherently governmental or commercial, (2) identify
  functional areas for competition, and (3) focus competition
  plans on desired outcomes.

 July 2003, Park Service: Agency Needs to Better Manage
  the Increasing Role of Nonprofit Partners (GAO-03-585).


                 19
   GAO emphasized the benefit of developing commercial
   service plans that defined the roles of concessioners and
   nonprofits in providing visitor services in minimizing
   conflicts and ensuring a more systematic basis for decision
   making.

 March 2003, National Park Service: Collection and Use
  of Franchise Fees (OIG No. 2003-I-0034). The report
  stated that NPS may not have used franchise fees to fund
  the highest priority projects because project priority
  ranking scores were not entered into PMIS.

 January 2003, Department of the Interior: Major
  Management Challenges and Program Risks (GAO-03-
  104). The report identified the important Departmental
  performance and accountability challenges, such as
  improving management of the national parks and
  addressing the deferred maintenance backlog.

 August 2002, National Park Service and Bureau of Land
  Management: Recreational Fee Demonstration Program
  (OIG Report No. 2002-I-0045). The report identified
  opportunities for NPS to improve Fee Demo accountability
  and project completion rate.

 December 2001, Department of the Interior: Integrated
  Charge Card Program (OIG Report No. 2002-I-0011).
  The report disclosed that the Department’s control
  environment for the integrated charge card program was
  not adequate to minimize abuse of the purchase card.
  Specifically, the Department did not have an effective
  process to validate purchase transactions, adjust credit
  limits, or deactivate ex-employees cards.

 March 2000, Park Service: Need to Address Management
  Problems that Plague the Concessions Program
  (GAO/RCED-00-70). This report identified long-standing
  concession problems related to the condition of lodging
  facilities. Recommendations included (1) improving the
  qualifications of NPS concession staff (or contracting out to
  acquire the needed expertise) and (2) establishing a formal
  process for performing periodic independent inspections of
  concessioners’ lodging facilities throughout the park
  system.




                 20
Appendix 3
Purchase Card Expenditures and Credit Limits
              Monthly       Average Monthly   Fiscal Year 2004
  Employee   Credit Limit    Expenditures      Expenditures
     1        $995,000          $18,593           $223,115
     2        $200,500           $1,332            $15,983
     3        $200,000           $1,891            $22,686
     4         $65,000              $0                $0
     5         $60,500           $5,419            $65,026
     6         $60,500           $4,897            $58,759
     7         $60,500           $3,960            $47,523
     8         $60,500           $2,667            $32,005
     9         $60,500           $1,824            $21,892
    10         $60,500           $1,737            $20,849
    11         $60,500           $1,420            $17,036
    12         $60,500           $1,373            $16,474
    13         $60,500           $1,078            $12,941
    14         $60,500           $1,009            $12,103
    15         $60,500            $933             $11,192
    16         $60,500            $906             $10,875
    17         $60,500            $824              $9,886
    18         $60,500            $763              $9,150
    19         $60,500            $726              $8,709
    20         $60,500            $714              $8,570
    21         $60,500            $687              $8,243
    22         $60,500            $557              $6,684
    23         $60,500            $487              $5,838
    24         $60,500            $447              $5,362
    25         $60,500            $366              $4,389
    26         $60,500            $322              $3,868
    27         $60,500            $319              $3,833
    28         $60,500            $125              $1,497
    29         $60,500            $112              $1,343
    30         $60,500             $81               $971
    31         $60,500             $59               $713
    32         $60,500             $54               $644



                            21
                    Monthly             Average Monthly           Fiscal Year 2004
  Employee         Credit Limit          Expenditures              Expenditures
    33               $60,500                   $54                      $642
    34               $60,500                   $37                      $446
    35               $60,500                   $12                      $142
    36               $60,500                    $6                       $73
    37               $60,500                    $0                        $0
    38               $60,500                    $0                        $0
    39               $60,500                    $0                        $0
    40               $60,000                 $1,091                   $13,096
    41               $57,000                 $1,029                   $12,350
    42               $46,500                  $195                     $2,335
    43               $45,000                  $485                     $5,824
    44               $10,500                   $75                      $902
    45               $10,500                   $70                      $844

Monthly Total       $3,807,500

Annual Total       $45,690,000                                        $704,813
Source: National Business Center-Charge Card Reports Distribution System.




                                        22
Appendix 4
National Park Service Response




                         23
24
25
26
27
28
Appendix 5
Status of Audit Recommendations


 Recommendations                      Status               Action Required

4 and 5                        Resolved and         No further response to the Office
                               Implemented          of Inspector General is required.

1, 2, 3, 6, 7, 8, 9, 10, 11,   Resolved             We will refer the
and 12                         Not Implemented      recommendations to the Assistant
                                                    Secretary for Policy,
                                                    Management and Budget for
                                                    tracking of implementation.




                                               29
